OIG Audit Report 06-10
Drug Enforcement Administration Annual Financial Statement
Fiscal Year 2005
Audit Report 06-10
February 2006
Office of the Inspector General
Commentary and Summary
This audit report contains the Annual Financial Statement of the Drug Enforcement Administration (DEA) for the fiscal years (FY) ended September 30, 2005 and September 30, 2004.  Under the direction of the Office of the Inspector General (OIG), KPMG LLP (KPMG) performed the DEA audit.  The audit resulted in an unqualified opinion on the FY 2005 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and the results of the entitys operations.  For FY 2004, the DEA also received an unqualified opinion on its financial statements (OIG Report No. 05-14).
No issues were identified in the Independent Auditors Report on Internal Control over Financial Reporting and the auditors concluded that the DEAs internal control over financial reporting achieves the objectives described in Government Auditing Standards and OMB Bulletin No. 01-02.  The FY 2004 Independent Auditors Report on Internal Control over Financial Reporting reported one reportable condition which has been satisfactorily resolved.
In their Report on Compliance and Other Matters, the auditors reported no issues, including no instances of noncompliance with the requirements of the Federal Financial Management Improvement Act (FFMIA) of 1996.
The OIG reviewed KPMGs report and related documentation and made necessary inquiries of its representatives.  Our review, as differentiated from an audit in accordance with U.S. generally accepted government auditing standards, was not intended to enable us to express, and we do not express, an opinion on the DEAs financial statements, conclusions about the effectiveness of internal control, conclusions on whether the DEAs financial management systems substantially complied with FFMIA, or conclusions on compliance with laws and regulations.  KPMG is responsible for the attached auditors report dated October 24, 2005, and the conclusions expressed in the report.  However, our review disclosed no instances where KPMG did not comply, in all material respects, with generally accepted government auditing standards.